<html>
<title> - H.R. 1518, A BILL TO AMEND THE HORSE PROTECTION ACT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





 
                      H.R. 1518, A BILL TO AMEND THE HORSE 
                           PROTECTION ACT

=======================================================================

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON COMMERCE, MANUFACTURING, AND TRADE

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 13, 2013

                               __________

                           Serial No. 113-91
                           
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]




      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                             
                                _____________
                                
                                
                                
                        U.S. GOVERNMENT PUBLISHING OFFICE
87-602                        WASHINGTON : 2015                                               
                      
________________________________________________________________________________________                        
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f196819eb19284828599949d81df929e9cdf">[email&#160;protected]</a>  
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               FRANK PALLONE, Jr., New Jersey
JOSEPH R. PITTS, Pennsylvania        BOBBY L. RUSH, Illinois
GREG WALDEN, Oregon                  ANNA G. ESHOO, California
LEE TERRY, Nebraska                  ELIOT L. ENGEL, New York
MIKE ROGERS, Michigan                GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
PHIL GINGREY, Georgia                JIM MATHESON, Utah
STEVE SCALISE, Louisiana             JOHN BARROW, Georgia
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   DONNA M. CHRISTENSEN, Virgin 
GREGG HARPER, Mississippi                Islands
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BILL CASSIDY, Louisiana              JOHN P. SARBANES, Maryland
BRETT GUTHRIE, Kentucky              JERRY McNERNEY, California
PETE OLSON, Texas                    BRUCE L. BRALEY, Iowa
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
CORY GARDNER, Colorado               BEN RAY LUJAN, New Mexico
MIKE POMPEO, Kansas                  PAUL TONKO, New York
ADAM KINZINGER, Illinois             JOHN A. YARMUTH, Kentucky
H. MORGAN GRIFFITH, Virginia
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Missouri
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina
           Subcommittee on Commerce, Manufacturing, and Trade

                          LEE TERRY, Nebraska
                                 Chairman
                                     JANICE D. SCHAKOWSKY, Illinois
LEONARD LANCE, New Jersey              Ranking Member
  Vice Chairman                      JOHN P. SARBANES, Maryland
MARSHA BLACKBURN, Tennessee          JERRY McNERNEY, California
GREGG HARPER, Mississippi            PETER WELCH, Vermont
BRETT GUTHRIE, Kentucky              JOHN A. YARMUTH, Kentucky
PETE OLSON, Texas                    JOHN D. DINGELL, Michigan
DAVE B. McKINLEY, West Virginia      BOBBY L. RUSH, Illinois
MIKE POMPEO, Kansas                  JIM MATHESON, Utah
ADAM KINZINGER, Illinois             JOHN BARROW, Georgia
GUS M. BILIRAKIS, Florida            DONNA M. CHRISTENSEN, Virgin 
BILL JOHNSON, Missouri                   Islands
BILLY LONG, Missouri                 HENRY A. WAXMAN, California, ex 
JOE BARTON, Texas                        officio
FRED UPTON, Michigan, ex officio
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Lee Terry, a Representative in Congress from the State of 
  Nebraska, opening statement....................................     1
    Prepared statement...........................................     2
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................     3
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     3
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     4
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, prepared statement..............................    97

                               Witnesses

Julius Johnson, Commissioner, Tennessee Department of Agriculture     5
    Prepared statement...........................................     7
Marty Irby, International Director and Former President, 
  Tennessee Walking Horse Breeders and Exhibitors Association....    10
    Prepared statement...........................................    12
W. Ron DeHaven, DVM, MBA, Executive Vice President and CEO, 
  American Veterinary Medical Association, and Former 
  Administrator, USDA Animal and Plant Health Inspection Service.    19
    Prepared statement...........................................    21
John Bennett, DVM, Equine Services LLC, on behalf of Performance 
  Show Horses Association........................................    37
    Prepared statement...........................................    39
Donna Benefield, Vice President, International Walking Horse 
  Association....................................................    51
    Prepared statement...........................................    54
Teresa Bippen, President, Friends of Sound Horses................    60
    Prepared statement...........................................    62
James J. Hickey, Jr., President, American Horse Council..........    65
    Prepared statement...........................................    67

                           Submitted material

Statements from The Cavalry Group, submitted by Mr. Long \*\
Whitfield docs...................................................    98
Blackburn docs...................................................   129

----------
\1\ The information has been retained in committee files and is 
  also available at http://docs.house.gov/meetings/if/if17/
  20131113/101469/hhrg-113-if17-20131113-sd004.pdf


          H.R. 1518. A BILL TO AMEND THE HORSE PROTECTION ACT

                              ----------                              


                      WEDNESDAY, NOVEMBER 13, 2013

                  House of Representatives,
Subcommittee on Commerce, Manufacturing, and Trade,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:08 a.m., in 
room 2322 of the Rayburn House Office Building, Hon. Lee Terry 
(chairman of the subcommittee) presiding.
    Present: Representatives Terry, Lance, Blackburn, Guthrie, 
Kinzinger, Bilirakis, Johnson, Schakowsky, Yarmuth, Matheson, 
Barrow, and Whitfield.
    Staff present: Charlotte Baker, Press Secretary; Kirby 
Howard, Legislative Clerk; Nick Magallanes, Policy Coordinator, 
Commerce, Manufacturing, and Trade; Brian McCullough, Senior 
Professional Staff Member, Commerce, Manufacturing and Trade; 
Gib Mullan, Chief Counsel, Commerce, Manufacturing and Trade; 
Heidi Stirrup, Health Policy Coordinator; and Shannon Weinberg 
Taylor, Counsel, Commerce, Manufacturing and Trade.
    Mr. Terry. I think we have all of our technical 
difficulties fixed as well, so Ms. Schakowsky, are we ready?
    Ms. Schakowsky. I am ready.

   OPENING STATEMENT OF HON. LEE TERRY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEBRASKA

    Mr. Terry. All right. First of all, I just want to thank 
all of our witnesses for being here today on Mr. Whitfield's 
bill.
    So welcome to today's hearing of the CMT Subcommittee, and 
I am pleased to welcome our witnesses and my good friend, Mr. 
Whitfield, the chairman of Energy and Power Subcommittee, and 
sponsor of this legislation that we are going to discuss today.
    Throughout my life, I have admired horses. I remember 
fondly riding horses at my grandpa's place in Colorado. I also 
put myself through 2 years of college and law school working at 
Ak-Sar-Ben Racetrack and have quite an affinity for the 
Thoroughbreds.
    Now, Congressman Whitfield's legislation, the Prevent All 
Soring Tactics Act, amends various parts of the Horse 
Protection Act of 1970 and 1976. H.R. 1518 bans the use of all 
action devices, weighted shoes, pads, hoof bands and other 
devices which alter the horse's gait. This legislation would 
also change the current self-governing framework, where Horse 
Industry Organizations train and appoint inspectors for shows 
and exhibitions with some oversight by the Animal and Plant 
Health Inspection Service, an agency of the Department of 
Agriculture. Now, H.R. 1518 would direct the Secretary of 
Agriculture to promote new regulations under which USDA would 
take over the licensing, training, assigning and overseeing of 
these inspectors.
    I look forward today to an exchange of ideas reflecting 
multiple viewpoints on this legislation. No law is ever 
perfect, and often, Congress needs to act in order to 
modernize, clarify or reduce burdens. I have no doubt that 
there are issues within the HPA that need to be addressed. 
However, I believe that when Congress is considering 
legislation that adds new layers of regulation to an industry, 
we must be precise and careful. This means narrowly tailoring 
this legislation to fit the specific problem that needs to be 
addressed.
    I want to thank everyone again for being here and 
traveling. I know several of you have come a long ways. We have 
a government official from Tennessee, Commissioner Julius 
Johnson, Tennessee's Commissioner of Agriculture, here, and 
pursuant to our traditional protocols, government officials get 
to testify first, and what we will do is, we will go from your 
right, my left, down the panel and we will discuss those rules 
when we get there.
    [The prepared statement of Mr. Terry follows:]

                  Prepared statement of Hon. Lee Terry

    Welcome to today's hearing of the CMT subcommittee. I am 
pleased to welcome our witnesses and to welcome my good friend, 
Congressman Whitfield, the Chairman of the Energy and Power 
Subcommittee and sponsor of the legislation that is the subject 
of today's legislative hearing.
    I have admired horses for much of my adult life, beginning 
in college and law school when I worked part-time at the local 
racetrack in Omaha. The idea of these animals being abused and 
mistreated, whether on the rack track or in the show ring, 
bothers me a great deal.
    Congressman Whitfield's legislation, the Prevent All Soring 
Tactics Act, amends various parts of the Horse Protection Act 
of 1970 and 1976. H.R. 1518 bans the use of all ``action 
devices,'' weighted shoes, pads, hoof bands and other devices 
which alter the horse's gait. This legislation would also 
change the current self-governing framework, where Horse 
Industry Organizations train and appoint inspectors for shows 
and exhibitions with some oversight by the Animal and Plant 
Health Inspection Service (APHIS), an agency of the Department 
of Agriculture. H.R. 1518 would direct the Secretary of 
Agriculture to promulgate new regulations under which USDA 
would take over the licensing, training, assigning and 
overseeing of these inspectors.
    I look forward today to an exchange of ideas reflecting 
multiple viewpoints on this legislation. No law is ever 
perfect, and often, Congress needs to act in order to 
modernize, clarify or reduce burdens. I have no doubt that 
there are issues within the HPA that need to be addressed. 
However, I believe that when Congress is considering 
legislation that adds new layers of regulation to an industry, 
we must be precise. This means narrowly tailoring this 
legislation to fit the specific problem that needs to be 
addressed.
    Thank you again, and welcome, to our witnesses for 
traveling here today. I would especially like to welcome an 
elected official from Tennessee, Commissioner Julius Johnson, 
Tennessee's Commissioner of Agriculture.

    Mr. Terry. Since the vice chairman isn't here, does anyone 
other than Ed and Marsha want 2 minutes? Seeing none, I yield 
back my time and now yield your 5 minutes to our ranking 
member, Jan Schakowsky.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you very much, Mr. Chairman. I 
appreciate this hearing, and I want to welcome all the 
witnesses for considering of H.R. 1518 sponsored by my good 
friend, Ed Whitfield, the PAST Act, Prevent All Soring Tactics. 
I am a previous horse owner. In addition to learning how to 
ride and jump a little--wasn't very good at it; my horse was 
better at it than I was--I learned how to keep him healthy and 
sound.
    We are dealing today with Tennessee Walking Horses, who 
have been known historically for their distinctive gait but 
evidence continues to emerge that too often these wonderful 
horses are trained through inhumane and really tortuous 
treatment, especially for high-stakes competitions. We are 
going to see a video, a very disturbing video, after I finish. 
It is short, 2 minutes and some 50 seconds. But what we will 
see are tactics that absolutely need to be stopped. The Horse 
Protection Act in 1970 was designed to eradicate the practice 
of soring. You will see this, the soring of the feet of the 
horses. Unfortunately, the Horse Protection Act enforcement is 
lax and the industry's self-policing has been largely 
ineffective in eliminating the practice. And so this 
legislation makes sense. In fact, as of today, it is 
cosponsored by 223 Members, well over a majority in the House 
of Representatives. We need to make sure that we really are 
protecting horses. That is what the PAST bill does, and I hope 
this video will make it very clear. This is ABC Nightline, a 
very short clip of it, if you could play that, please, as part 
of my testimony?
    [Video shown.]
    And I yield back.
    Mr. Terry. Thank you. At this time I will yield2 \1/2\ 
minutes to the gentlelady from Tennessee.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman, and I want to 
welcome Commissioner Johnson and appreciate him being here.
    I think that we all agree that the soring of horses in any 
form is objectionable on every level, and for good reason. 
Soring is illegal, and you are going to hear from Commissioner 
Johnson. The State of Tennessee has zero tolerance for those 
who knowingly commit violations and have worked diligently with 
industry leaders to curb the practices. In fact, according to 
the most recent data from USDA, the compliance rate for shows 
this year has been over 96 percent with less than 4 percent of 
the nearly 10,000 inspections resulted in some sort of sore 
violation. Accordingly, the USDA, this is their compliance 
rate. For the Horse Industry Organization-affiliated Tennessee 
Walking Horses shows it was 98 \1/2\ percent over the period 
2009 to 2012.
    So why is additional legislation necessary for an industry 
that is over 98 percent compliant? Now, let us compare this to 
the Thoroughbred racing industry, which is in our neighboring 
State of Kentucky in which one report found that 3,000 horses 
died between 2009 and 2011. During the same period, one horse 
participating in a Tennessee Walking Horse show event died. 
Based on conversations I have had with breeders in Tennessee, 
enacting the bill before us would potentially eliminate an 
entire division of horse breed and result in the loss of 
thousands of jobs in Tennessee, Kentucky, Missouri, Texas, 
North Carolina, Virginia, Texas, and Mississippi. They are all 
connected with the industry. The economic impact of the Walking 
Horse industry in Tennessee is $1.5 billion. The Celebration 
Show in Shelbyville, Tennessee, brings in over $40 million to 
that community. This legislation imposes excessive regulatory 
burdens on the Walking Horse industry and could potentially 
eliminate the entire industry and thus the entire breed.
    With that, I yield to the gentleman from Kentucky, Mr. 
Whitfield.
    Mr. Terry. The gentleman is recognized for 2 \1/2\ minutes.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. Well, I thank the gentlelady very much for 
yielding, and I appreciate Chairman Terry and Ms. Schakowsky 
having this hearing today.
    As has been said, the Horse Protection Act was passed by 
Congress in 1970 to stop the practice of soring. The only 
breeds being sored today are the Tennessee Walking Horses, the 
Spotted Saddle and Racking. The U.S. Department of Agriculture 
Inspector General report issued a few years ago has concluded 
that the current program for inspecting for soring is not 
adequate to ensure that these animals are not being abused. The 
DQPs being hired by the HIOs have a clear conflict of interest 
and do not properly enforce the Horse Protection Act.
    Many in the horse show industry do not regard the abuse of 
horses as a problem, and when USDA inspectors conduct their few 
inspections, they are subjected to intimidation and harassment 
and must routinely bring law enforcement for protection. USDA 
has recommended that the DQP program be abolished and 
independent, accredited veterinarians perform inspections at 
sanctioned shows.
    H.R. 1518 adopts that recommendation and makes it more 
difficult to sore and use devices to alter the horse's natural 
gait. This bill has widespread support including 4 horse 
organizations including the American Horse Council. It has all 
50 State veterinary medical associations, the American 
Association of Equine Practitioners, and 223 Members of 
Congress are cosponsors.
    We are going to hear testimony today about the show entity 
in the Shelbyville, Tennessee, area being 98.5 percent 
compliant. We are also going to hear other witnesses disagree 
with that, and we are going to tell you why they disagree with 
it.
    I feel bad that we would not have this problem today in the 
industry except for a few areas around Shelbyville, Tennessee, 
a few areas in Missouri, and yes, a few areas in Kentucky, and 
that is why later on we are going to find out why the inspector 
organizations in Tennessee and in Missouri and in Kentucky have 
been notified by the Department of Agriculture that they are 
going to be decertified. They are not there yet, but I look 
forward to the hearing and the information that we will learn 
from it. Thank you.
    Mr. Terry. Thank you, Mr. Whitfield, and now it is time for 
the show, which is hearing from our witnesses on H.R. 1518, and 
I am going to introduce the witnesses now, and then when I am 
finished with that, we will start with Mr. Johnson. Each of you 
will have 5 minutes. There is a little--well, I see one in 
front of Ms. Benefield and one behind us. Green means you are 
good to go. When it starts to get yellow, or when it is yellow, 
that means start wrapping it up, and red, I am going to 
probably interject and have you wrap up at that point.
    So we have a really fantastic panel with us today. We have 
the Hon. Julius Johnson, Commissioner of the Tennessee 
Department of Agriculture, then Marty Irby, International 
Director and former President, Tennessee Walking Horse Breeders 
and Exhibitors Association. We have Mr. Ron DeHaven, DVM, 
Executive Vice President and CEO of American Veterinary Medical 
Association, former Administrator, USDA Animal and Plant Health 
Inspection Service. Thank you for being here. Mr. John Bennett, 
DVM, Equine Services, LLC, on behalf of the Performance Show 
Horse Association; Donna Benefield, International Walking Horse 
Association, then Teresa Bippen, President, Friends of Sound 
Horses, and last to testify, James Hickey, Jr., President, 
American Horse Council.
    So at this time I want to recognize the Hon. Julius Johnson 
for your 5 minutes.

  STATEMENTS OF HON. JULIUS JOHNSON, COMMISSIONER, TENNESSEE 
 DEPARTMENT OF AGRICULTURE; MARTY IRBY, INTERNATIONAL DIRECTOR 
  AND FORMER PRESIDENT, TENNESSEE WALKING HORSE BREEDERS AND 
  EXHIBITORS ASSOCIATION; W. RON DEHAVEN, DVM, MBA, EXECUTIVE 
      VICE PRESIDENT AND CEO, AMERICAN VETERINARY MEDICAL 
 ASSOCIATION, AND FORMER ADMINISTRATOR, USDA ANIMAL AND PLANT 
 HEALTH INSPECTION SERVICE; JOHN BENNETT, DVM, EQUINE SERVICES 
 LLC, ON BEHALF OF PERFORMANCE SHOW HORSES ASSOCIATION; DONNA 
    BENEFIELD, VICE PRESIDENT, INTERNATIONAL WALKING HORSE 
ASSOCIATION; TERESA BIPPEN, PRESIDENT, FRIENDS OF SOUND HORSES; 
  AND JAMES J. HICKEY, JR., PRESIDENT, AMERICAN HORSE COUNCIL

                  STATEMENT OF JULIUS JOHNSON

    Mr. Johnson. Thank you, Chairman Terry, Ranking Member 
Schakowsky and members of the subcommittee. I appreciate this 
opportunity. I am going to stick to my statement and be very 
brief at the same time.
    As Commissioner of the Tennessee Department of Agriculture, 
I appreciate you allowing me to provide testimony on the 
importance of the equine industry and especially the Tennessee 
Walking Horse industry to our State. The equine industry is an 
important part of Tennessee's economy and its heritage. We are 
ranked among the top six States in the Nation in number of 
equine, according to the latest census of agriculture. Our 
Market Development Division within the Department helps to 
support this growing industry through promotion of Tennessee 
trails, shows and events and through the involvement with 
numerous breed associations. Tennessee is home to several 
national breed associations in addition to the Tennessee 
Walking Horse.
    Some facts about Tennessee's equine industry are a 2010 
survey indicated 170,000 head but a more comprehensive survey 
in 2004 indicated 240,000 head in Tennessee. We believe the 
numbers have not declined but rather the variation is more due 
to the tactics of which the survey was taken. There are 41,000 
Tennessee farms with horses, 41,000. There are 3.2 million 
acres, 30 percent of Tennessee's farmland, designated to equine 
uses. So you can see this industry as a whole is very important 
to our State agricultural industry.
    The total economic impact from the equine industry in 
Tennessee is $1.4 billion. The total value added impact of 
equine in Tennessee is $746 million. The indirect business tax 
revenue received by state and local government is $61.2 
million, and the total estimated economic impact from the horse 
shows and events is $45 million. The importance of the industry 
to the many local and rural community charities, which they 
organize these activities, and other organizations is 
tremendously significant. It is going to be a major hit to 
rural Tennessee.
    The industry creates 20,309 jobs throughout our State, and 
again especially in rural Tennessee, which is so hard pressed 
to attract any jobs, and it is more meaningful there than any 
other place, and we simply will be devastated with the loss of 
this kind of jobs.
    The Tennessee Department of Agriculture and I personally 
find the soring of horses in any shape, form or fashion 
objectionable on every level. There should be no tolerance for 
animal cruelty. Walking horse industry leaders have made what 
we believe are monumental strides at eliminating this practice 
from the industry, and we believe they are committed to a 
policy of zero tolerance for individuals who commit violations. 
We understand the motives of some to further tighten the 
regulation of the industry in order to protect the horse. 
However, we caution against overreaction by some who seek to 
eliminate horse shows at the expense of rural communities 
across the State and horse owners, the vast majority of whom 
are caring and responsible in the management of their animals.
    Rural Tennessee would suffer the greatest as a result of 
this type of legislation. We urge this committee and Congress 
to find the right balance that protects the horse as well as 
ensures the viability of the walking horse industry should you 
find it necessary to pass any legislation at all.
    The Tennessee Walking Horse is a wonderful, dynamic breed 
that has been the enjoyment of many around the world for its 
ride, its gentleness and its endurance. We believe Congressman 
Whitfield's proposed legislation is based more on perception 
than on sound science. We believe it is excessive and will 
damage the industry significantly and potentially eliminate the 
performance horse altogether. I urge you to find sensible 
solutions to this issue.
    Thank you for your time.
    [The prepared statement of Mr. Johnson follows:]
    [GRAPHICs NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Terry. Thank you.
    At this time, Mr. Irby, you are recognized for your 5 
minutes.

                    STATEMENT OF MARTY IRBY

    Mr. Irby. Thank you, Mr. Chairman. Thank you, Ms. 
Schakowsky, and other members. My name is Marty Irby and I 
served as the President of the Tennessee Walking Horse Breeders 
and Exhibitors Association from December of 2010 until December 
of 2012 and currently serve as an International Director. But 
today I am here representing myself. In addition, last night I 
was informed that I have been selected as the nominated 
President for 2014 of the Association. I have owned Racking 
Horse World Grand Champions and have judged the Spotted Saddle 
Horse World Grand Championship. All three of these breeds are 
affected by this legislation that I fully support.
    In 1955, my grandfather veterinarian obtained his first 
Tennessee Walking Horse and joined the association I later 
became President of. At the age of 3, I was first placed on a 
Tennessee Walking Horse, and at the age of 5, I first began 
competing in World Grand Championship competitions. Since 
childhood, I have observed the horrific practice of soring, and 
my father taught me how to sore a horse at the age of 13. 
Soring padded performance horses is ingrained within our 
culture. From my personal and public stance, I have suffered 
many losses. Even family members have turned against me. I ask 
that you not let these efforts be in vain. I am here to prevent 
the extinction of the Tennessee Walking Horse, and I believe 
this bill must pass the House of Representatives and Senate.
    I have seen horses' feet in the past on many occasions look 
like pizza with the cheese pulled off the top of it. That is 
how horrific this practice is. I have listened to thousands of 
people--breeders, trainers, exhibitors and owners--who want 
change within our industry. Poll after political continues to 
show that the majority favor this bill. During my 8 years of 
service in various positions, I tried to move forward and move 
our breed in a new direction from within and was unsuccessful 
with my attempts. Therefore, I am here before you today to ask 
Congress to please help save our breed.
    Other breeds may be doing well in Tennessee and their 
numbers may be good but the Tennessee Walking Horse is not 
doing well. Over the past 10 years, our membership has declined 
from more than 20,000 to 8,300 or less. In 2006, when I was an 
International Director, we failed to crown a World Grand 
Champion because most of the horses were disqualified and 
deemed sore and in violation of the Horse Protection Act by the 
United States Department of Agriculture. In 2010, when I served 
as Vice President of Marketing, we were kicked out of the World 
Equestrian Games in Kentucky, and our $25,000 sponsorship check 
was returned due to the soring issues and utilization of stacks 
and chains.
    Our greatest fault for many decades as a breed is that we 
have been trying to save the padded performance horse. Recently 
I discussed this with a friend, and I said we tried and tried 
to save the performance horse and now it is about saving the 
breed. He said, well, shouldn't that have been what it was 
about all along? That spoke volumes to me.
    At this point in time and as I have progressed, I have 
realized that we must let go of the sore padded performance 
horse and step soundly into the future or we will not realize 
any future at all.
    In May of 2012, I was as President faced with perhaps the 
most critical decision that has ever faced our breed: should I 
continue to perpetuate the lie that padded and chained horses 
are mostly sound----
    Mr. Terry. Will you pull the microphone a little closer? I 
just heard that they can't hear you in the control room.
    Mr. Irby. Should I continue to perpetuate the lie that 
padded and chained performance Tennessee Walking Horses are 
mostly sound and only a few bad apples sore them, or should I 
recognize the truth, that most all of them have been sored or 
are sore. This question came into mind after the ABC expos AE1e 
Nightline that you saw earlier. I was President that day and 
happened to be in Wemding, Germany, judging a horse show and 
saw the world's reaction from the outside of this horrific 
practice. I knew that day that things must change, and the 
brutal beating and soring and electric prodding of horses like 
people like Jackie McConnell have done need to stop. I have 
known Jackie McConnell since I was 5 years old and my family 
was friends with him.
    This event became the Tylenol crisis of the Tennessee 
Walking Horse breed and the negative stigma associated with our 
breed due to soring has caused the value of yearling colts to 
drop from $20,000 or more to many just to $300 to $500 in a few 
years. Our breed records reflect that last year we bred a small 
fraction of the number of mares we bred 8 years ago. Our lack 
of ability to self-regulate over the past 43 years has brought 
our breed to this crossroads. I have observed more corruption 
in soring horses, corrupt inspections, corrupt judging, corrupt 
training methods, corrupt business practices intertwined with 
this industry than I have seen anywhere on this earth, and this 
has nearly destroyed our great breed.
    It is now time someone took action to save our breed and 
make our economy grow again. An economy based on criminal 
activity is not healthy for our industry and not healthy for 
our country. For this to happen, the mechanically created and 
artificial gait known as the Big Lick must cease to exist along 
with pads, action devices and soring so that this dark cloud 
can be removed from our breed. In addition, the HIO inspection 
system should be eliminated so that the self-regulation can go 
away and things can be done in the right manner.
    I thank you, Mr. Chairman, and appreciate the time to be 
here today and testify before you.
    [The prepared statement of Mr. Irby follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Terry. Thank you.
    Dr. DeHaven, you are recognized for your 5 minutes.

                  STATEMENT OF W. RON DEHAVEN

    Dr. DeHaven. Thank you, Chairman Terry, Ranking Member 
Schakowsky and members of the subcommittee. I am here today 
both as a veterinarian and also as a representative of the 
American Veterinary Medical Association. Mr. Chairman, while I 
will be giving an abbreviated statement, I request that my full 
written testimony be included in the hearing record.
    Mr. Terry. So ordered.
    Dr. DeHaven. The AVMA is the recognized voice of our 
Nation's veterinarians, representing more than 84,000 members, 
or roughly 80 percent of all veterinarians in the United 
States. My testimony today, though, also represents the joint 
efforts between AVMA and the American Association of Equine 
Practitioners. Together we are committed to upholding the 
health and welfare of our Nation's horses.
    I want to thank you for the opportunity to speak today as I 
believe I have a very unique perspective, having been engaged 
in this issue since very early in my career. Prior to the AVMA, 
I was the Administrator with the U.S. Department of 
Agriculture's Animal and Plant Health Inspection Service and 
had national responsibility for enforcement of the Horse 
Protection Act. But even before that, my first role with the 
USDA was as a field veterinary medical officer, where I gained 
6 years of boots-on-the-ground experience enforcing the Horse 
Protection Act and working at horse shows. I know the walking 
horse industry and its problems from the ground up.
    I want to thank Congressman Whitfield for his leadership in 
introducing and championing H.R. 1518, the Prevent All Soring 
Act, or PAST Act. I believe it represents a unique opportunity 
to once and for all end the cruel and inhumane practice of 
soring our Nation's walking horses. I have witnessed the long-
lasting and damaging effects that soring has on horses and feel 
that this bill is necessary in order to stop this culture of 
abuse that has existed for more than 40 years in the walking 
horse industry.
    All of us know what soring is and that it is an unethical 
and inhumane practice, and it involves deliberately inflicting 
pain to exaggerate the leg motion of some gaited horses but 
especially Tennessee Walking Horses, Spotted Saddle Horses and 
Racking Horses. Not only is it inhumane but it is also 
unethical, giving an advantage to those trainers who use the 
practice to achieve this unnatural gait known as the Big Lick.
    Horses can be sored with chemicals, which are typically 
caustic liquids applied to the horse's lower leg, making that 
leg sensitive to the touch. Action devices, which are bracelet-
like chains or rollers, are then placed on the legs and then 
strike that area of the pastern, exacerbating the pain that has 
already been sored. Although there is little reason to use 
these chains in the show ring unless a horse has been sored, 
the current law still permits their use.
    Horses can also be sored using physical methods, resulting 
in pain when the horse's hoof strikes the ground. A few 
examples of this include improperly trimming the hoof to expose 
sensitive tissues, placing foreign objects such as metal bolts 
between the shoe pads and the sole of the foot, or improper 
shoeing techniques. Performance packages or the so-called 
stacks and pads are often nailed to the horse's natural hoof 
and secured by a metal band that runs across the hoof wall. 
That adds weight to the horse's leg, causing the hoof to strike 
with more force and also at an abnormal angle. These pads can 
also be used to conceal foreign objects that apply painful 
pressure to the sole of the horse's foot.
    Soring is detected through visual and manual inspections 
and through the use of various types of technology. Even so, 
unethical trainers and owners have developed creative ways to 
avoid detection. These include but are not limited to the use 
of numbing agents on the horse's legs to mask the pain during 
the inspection. The use of harsh or even painful training 
methods called stewarding that teaches the horse if they flinch 
or otherwise show evidence of pain during inspection, that they 
will be subject to even more severe abuse.
    Looking back, Congress recognized the importance of 
stopping this egregious practice when they passed the Horse 
Protection Act with the goal of ending this practice. 
Unfortunately, the law did not go far enough. Many factors 
including unethical trainers and owners who continue to sore, 
show judges who reward this bad behavior, and insufficient 
funding as well as strong political influences, all of these 
have contributed to a culture of corruption within the walking 
horse industry, and that is what allows soring to continue 
today. Many trainers and owners feel in fact that they must 
sore if they are going to be competitive.
    One of the major drawbacks of the current enforcement 
program is reliance on the walking horse industry to police 
itself. This is the proverbial fox watching the henhouse. 
Industry inspectors commonly have inherent conflicts of 
interest and therefore it can be to their advantage to let a 
sore horse into the show ring. Indeed, a 2008 white paper by 
the American Association of Equine Practitioners as well as the 
2010 USDA OIG report confirm this assertion, and both of those 
reports called for the ending of this self-policing practice. 
The data submitted with my written testimony shows violation 
rates vary from year to year, but I want to draw your attention 
to several points. First, violation rates are never zero. 
Second, oversight by USDA veterinarians shows that inspectors 
are much more likely to find violations when in fact they have 
oversight.
    This legislation is endorsed by more than 100 organizations 
including every veterinary medical association at the State 
level and the United States. Thus, it means that every member 
of this subcommittee has constituents who are veterinarians 
that want this bill passed.
    Mr. Chairman, thank you, and thank you to the committee for 
this opportunity to testify on behalf of the American 
Veterinary Medical Association.
    [The prepared statement of Dr. DeHaven follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Terry. Thank you.
    Dr. Bennett, you are now recognized for your 5 minutes.

                   STATEMENT OF JOHN BENNETT

    Dr. Bennett. Thank you. Chairman Terry, Ranking Member 
Schakowsky and members of the committee, I thank you for the 
opportunity to be here and discuss H.R. 1518 and impact it 
would have on the walking horse industry.
    I have been a licensed veterinarian for 33 years, and 
currently I am licensed in the States of Kentucky, Tennessee, 
Mississippi, Alabama, and Florida. I am a member of the AVMA, 
the AAEP, Kentucky Veterinary Medical Association, the 
Tennessee Veterinary Medical Association, the Florida 
Association of Equine Petitioners, Tennessee Walking Horse 
Breeders and Exhibitors Association, and also a member of TCVM, 
which is Traditional Chinese Veterinary Medicine, which 
correlates to I do acupuncture. I have also been a veterinarian 
for the Humane Society of the United States to look after the 
horses that were confiscated from the Jackie McConnell stables 
in West Tennessee. I have also been a veterinarian for the 
Humane Society of the United States for horses confiscated in 
East Tennessee from the Larry Wheeling stables. I have also 
worked for the USDA and their annual training programs to train 
the inspectors, the DQPs, that inspect the horses. I have 
taught classes at those courses. I go through all that merely 
to say that I am the one person on this panel that every day is 
out there where the rubber meets the road. My practice is 
located in Shelbyville, Tennessee. Up to 60 percent of it is 
made up of Tennessee Walking Horses. The rest are Western 
Performance Horses, American Saddlebreds, Hunter Jumpers, 
occasional mule and miniature, I guess to keep me humble.
    One thing that I would bring out after we saw the video, 
nobody in this room should put up with animal cruelty of 
whatever breed at all. But make no mistake, the Horse 
Protection Act as it is written today and as it is being 
proposed today would have no jurisdiction over either one of 
those cases. The industry, as Mr. Whitfield says, has data that 
says we are 98 percent compliant. The USDA data says we are 
96.6 percent compliant. The reason I am here today is, I feel 
like that the industry is moving forward.
    On the other hand, I get asked if you are opposed to H.R. 
1518, then you are for soring horses. That is absolutely not 
the case. There is not a person on this panel or in this room 
that doesn't view soring as a cancer on this industry. As a 
medical professional, I prefer to cut it out with a scalpel 
blade. H.R. 1518 wants to use a chainsaw.
    I was lucky enough in the fall of 2012 to meet in southern 
Kentucky with Congressman Whitfield to discuss the same issues 
that we have today, and I too wonder after 40-some years and in 
the pat year since we met, why are we still having these 
problems? And I would submit to you, ladies and gentlemen, in 
my opinion, I think the technology has caught up with horse 
training. Now I think it is time for the Horse Protection Act 
to catch up to the technology.
    I would invite each and every one of you at any time, you 
don't have to call ahead, come down and ride with me, see what 
I see. You have got an open invitation.
    And with that said, I do want to thank you for the 
opportunity to be here, and I will do my very best to answer 
any questions you have. Thank you.
    [The prepared statement of Dr. Bennett follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Terry. Thank you, Dr. Bennett.
    Ms. Benefield, you are now recognized for 5 minutes.

                  STATEMENT OF DONNA BENEFIELD

    Ms. Benefield. I would like to thank Chairman Terry and 
Ranking Member Schakowsky and distinguished members of the 
subcommittee for giving me the opportunity to testify here 
today.
    Mr. Chairman, I would like to request that my written 
testimony and exhibits be admitted into the official record.
    Mr. Terry. All members, your statements will be entered 
into the record.
    Ms. Benefield. My name is Donna Benefield, and I am the 
Vice President of the International Walking Horse Association. 
I have been involved in the administration of four USDA-
certified inspection programs over the past 25 years. I have 
inspected thousands of horses for compliance with the Horse 
Protection Act and its regulations. I have been in hundreds of 
meetings here in Washington, D.C., with the USDA and the 
Tennessee Walking Horse Industry to achieve reform in the 
industry and compliance with the federal law.
    When Congress passed the Act in 1970, their intent was to 
eradicate soring, not regulate it, as is being done under the 
current horse protection regulations. On April 27, 1979, the 
Federal Register published the following: ``If the horse 
industry makes no effort to establish a workable self-
regulatory program for the elimination of sore horses or if 
such a program is established but does not succeed in 
eliminating the sore horse problem within a reasonable length 
of time, the Department will give serious consideration to the 
prohibition of all action devices and pads.''
    This industry has had over 40 years to rid itself of this 
abuse, and for numerous reasons has not only resisted, but has 
refused reform at every turn. They have maintained, controlled 
and regulated soring through fear and intimidation for decades. 
Back in the 1980s, there were headlines on the front page of 
the Nashville Tennessean newspaper regarding death threats on 
me. The FBI became involved, and arranged protection for my 
husband and me for many years. In the 1990s, we had a horse 
killed. Years later another horse was poisoned at a horse show.
    Due to the time constraints, I am going to share with you 
only a few things that are done to these horses to enhance 
their gait and to avoid detection of a violation of the Horse 
Protection Act. What they do to sore a horse: caustic chemicals 
are applied to the pasterns--ankles, the cannon bone, or the 
shin of the horse, then wrap the legs in plastic for 24 to 48 
hours. They are tied to the wall. They put duct tape around the 
wraps to prevent the horse from chewing the wraps off their 
burning legs, due to the intense pain. They will use an 
electric grinder to sand the soles of the feet down to the 
quick until beads of blood come to the surface before applying 
the shoe. They will insert foreign objects between the soles of 
the horse's feet and stacks. They will pressure shoe a horse by 
standing the horse on steel bolts or wooden blocks. They will 
sand a strip of the hoof wall down to the quick, apply a band 
across the top of the area and tighten it down with a 
screwdriver to create pressure on the sensitive hoof wall or to 
create additional pressure to the sole of the pressure-shod 
horse.
    I have seen the bands sheared off the hoof near the top of 
the hoof many times, leaving the horse standing on a bloody nub 
in a pool of blood in the show ring. At a recent seminar, one 
of the industry vets instructed attendees what supplies to have 
in their grooming kit so that they were prepared when this 
happens.
    The reason why these things are not detected during 
inspection, they steward the horses. Stewarding is when a 
person will do a mock inspection of the horse's pasterns while 
another person will hold the horse. When the horse reacts to 
the pain, the person will hit the horse in the head with a two 
by four, an ax handle or a baseball bat, among other things, 
until he stops reacting to the pain. I have seen this many 
times. He then has been taught not to react during the 
inspection at the horse show, as seen on the ABC Nightline show 
with Jackie McConnell that you just saw. They use numbing 
agents applied topically or injected by the trainer or a 
sympathetic industry vet to block the pain at shows. They will 
allow alligator clips to the scrotum, anus, vulva, tongue, tail 
or the teats of the horse to create a painful distraction 
during the inspection. They put zip ties or piano wire on the 
gums of the horse and pull it very tight, creating pain to take 
their mind off of the pain on their feet. They use glue-on 
hair, tattooing, sprays, graphite among other things to hide 
the illegal scars. They put bit burrs under the saddle girth 
and cinch the girth up tight to create pain to distract the 
horse. Salicylic acid is used to remove scars. They slather a 
paste of salicylic acid and alcohol, Cut-Heal or DMSO or 
whatever onto the pastern, wrap them in plastic for 24 to 48 
hours to cook. The horse will typically lie in a stall, 
breaking out in a sweat, moaning with pain and resist getting 
to his feet. They then have to go into the stall and beat the 
horse to his feet, as was seen in the ABC Nightline Jackie 
McConnell show. After 48 hours, the will take the wraps off and 
the skin begins to slough off. They then begin the tedious 
process of literally combing the skin off of the leg, thereby 
hopefully putting the horse back into compliance with the 
current Horse Protection scar rule regulation.
    The AVMA and the AAEP recently issued a statement on the 
impact of the pads and chain: ``What the science says is that 
raising the heels--placing a horse on pads and wedge--8 degrees 
can cause the horse to stumble and tire easily. Additionally, 
horses placed on pads and wedges showed inflammation in the 
flexor tendon area of the pastern. Chains that weigh 6 ounces 
will start to cause hair loss without the use of chemical 
irritants. Chains heavier than 6 ounces used on horses that 
have been previously sored will cause open lesions within 2 
weeks. We're happy to say we did our homework and, yes, the 
science that's available appears to support our position. 
However, the industry has once again missed the point of the 
AVMA's and AAEP's decision. The AVMA's and AAEP's primary 
concern----
    Mr. Terry. Please wrap up.
    Ms. Benefield [continuing]. Is that the chains and pads are 
used to exacerbate and hiding soring. For this reason, the IWHA 
endorses this bill, and we are here today asking for the 
passage of H.R. 1518 amendment to correct this chronic 43-year-
old problem. Thank you.
    [The prepared statement of Ms. Benefield follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Terry. Thank you.
    Ms. Bippen, you are now recognized for your 5 minutes.

                   STATEMENT OF TERESA BIPPEN

    Ms. Bippen. Thank you, Mr. Chairman, and I ask that my 
testimony and exhibits be included in the official record.
    Mr. Terry. And they will be.
    Ms. Bippen. Thank you. Friends of Sound Horses, or FOSH, is 
a nonprofit organization that is dedicated to ending the abuse 
of soring. FOSH is an umbrella organization of 15 gaited horse 
breeds including the Tennessee Walking Horse, Spotted Saddle 
Horse and Racking Horse. FOSH has been in existence since 1998 
and supports the PAST Act.
    For its entire existence, FOSH has been committed to ending 
soring. During this time, FOSH has worked with the USDA, 
developed and populated the largest database in existence of 
HPA violations, built a public Web site with a library of all 
publications on soring since 1956, sponsored three Sound Horse 
Conferences, and researched numerous technology solutions to 
detect soring.
    Although we have often heard from the walking horse 
industry spokesmen that the problem of soring is the result of 
a few bad apples, the total number of HPA violation records is 
over 10,000 since the mid-1980s. This history of ongoing 
violations spans more than 40 years, through trainers, entire 
families, old and new names, and this is why FOSH has reached 
the conclusion, as have the other endorsers of this bill, that 
legislative change is the only solution to end the plague of 
soring.
    FOSH is one of over two dozen national and international 
walking horse organizations that support the PAST Act. These 
organizations have been in existence for many years and do not 
allow padded and chained horses in their show rings. After 
trying to bring about change in the traditional show world for 
years, concerned exhibitors and spectators alike abandoned 
venues like The Celebration. Banning the padded and chained 
horse has allowed these organizations to thrive because 
exhibitors and spectators at their shows do not want to be 
surrounded by the abuse that occurs in the big lick show world 
nor do they want to exhibit with people who use illegal means 
to win a ribbon.
    Through its research and experience, FOSH has determined 
that a combination of weak inspections, conflicted DQPs and the 
failure of HIOs to report violations has created a culture of 
acceptance in exhibiting sored horses, which routinely hides 
and misrepresents the data to deceive Congress and the public 
about the widespread nature of the problem.
    A few specific examples of the lack of compliance with the 
Act among the Big Lick segment of the industry include the USDA 
reported that at the 2012 Celebration in a random swabbing for 
signs of foreign, prohibited substances, 145 swab samples of 
190 tested positive for foreign substances. This is a 76 
percent noncompliance rate. Celebration management, however, 
announced to the public in news releases that it would be 
swabbing every horse on the grounds for prohibited foreign 
substances. They reported only two positive swab samples in 
almost 2,000 entries while the USDA found 145 in a sample of 
only 190 horses. Based on examples such as this one, FOSH has 
concluded that the current HIO system is broken, or else there 
would not be such a large discrepancy between the USDA samples 
and those of the Celebration.
    During 2010, 2011, and half of 2012, the violation rate for 
three compliant HIOs--FOSH, International Walking Horse 
Association and National Walking Horse Association--was only 
.02 percent, or only eight violations out of over 42,000 
inspections. These three compliant HIOs have perfect inspection 
records when their shows are attended and audited by the USDA. 
By contrast, the violation rate at the 2012 Celebration was 9 
percent, which is 450 times greater than that of the compliant 
HIOs.
    In August this year, the USDA released figures for the show 
season through April 2013 that further support passage of PAST. 
Of 241 HPA violations, 93 percent of the violations were on 
padded horses. Not only that, but when the USDA inspectors were 
present at shows this year, the HPA violation rate was 280 
percent greater than when the rate at shows at which USDA was 
not there.
    It is the conclusion also of FOSH that weak penalties 
imposed by noncompliant HIOs are meaningless and do not serve 
as deterrents. As an example, the top five 2013 Riders Cup 
contenders share 94 reported HPA violations as reported at the 
publicly available Web site, HPAdata.us.
    Another factor influencing FOSH's support of stronger 
penalties is the repeat violator list generated by that same 
Web site. This repeat-violator list is 260 pages long single-
spaced. Much stronger penalties are needed to serve as a 
deterrent as the current penalty structure has been meaningless 
and ignored by violators for many years.
    While FOSH has been a part of efforts to save the Tennessee 
Walking, Racking and Spotted Saddle industries by providing a 
network of horse shows where competitors train horses humanely 
and play fairly and in compliance with the law, we have noticed 
that the stigma associated with the problems in the Big Lick 
industry has caused economic harm to our breeds. Because most 
true horsemen do not want to be associated in any way with 
animal abuse or illegal activity, fewer horses are being bred, 
raised, trained, shod, boarded, fed, treated with veterinary 
care and shown in our breeds. The negative impact on the 
economy caused by the ongoing presence of soring and the 
failure of the Horse Protection Act to eradicate the problem is 
far reaching. The PAST Act is needed to fix the deficiency in 
the current law, restore honor to the breeds afflicted by 
soring and bring more people and dollars back into the horse 
industry.
    In closing, FOSH reiterates that its experience, analysis 
and research have led it to strongly support PAST, which 
provides for greater penalties, abolishment of the HIO system 
and elimination of devices that are an integral part of the 
abuse of soring. Thank you.
    [The prepared statement of Ms. Bippen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Terry. Thank you, Ms. Bippen.
    Now, Mr. Hickey, you are now recognized for your 5 minutes, 
and your statement will be part of the record.

                  STATEMENT OF JAMES J. HICKEY

    Mr. Hickey. Thank you very much for the opportunity to 
present this testimony on behalf of the American Horse Council 
in support of the Prevent All Soring Tactics Act of 2013.
    My name is Jay Hickey. I am the President of the American 
Horse Council. We are a Washington-based organization that 
represents the horse industry here in D.C. before Congress and 
the federal regulatory agencies. Our organization's members 
include organizations that represent show, racing, recreation 
and stakeholders.
    You have already heard about soring and its mechanics, the 
pain it causes the horses, the Horse Protection Act, the 
continued problems with soring in segments of certain breeds in 
the bill at issue. I would like to explain the position of the 
American Horse Council and how we came to support this 
legislation.
    It seems strange that an industry would come to the federal 
government and support additional regulations but there are 
good reasons for that. When the original bill was introduced at 
the end of last Congress, the AHC felt it was worthy of review. 
We asked two of our committees, our animal welfare committee 
and our horse show committee, to review it. After meetings, 
numerous calls, emails, lengthy discussions and serious 
considerations, it was clear that there was strong support for 
this bill. I think simply stated, everybody felt it was an idea 
whose time had finally come. The two AHC committees recommended 
that the board support it, and we now do.
    Why do we support this legislation? We support it because 
soring continues. We have heard testimony about the USDA OIG 
study. We have heard testimony that a meaningful percent of 
horses in the performance or Big Lick sector of the walking 
horse industry are still being sored despite efforts to stop 
it. Many actions have been initiated over the last 40 years to 
end this practice, new organizations formed, new promises made, 
but the problem persists. We support this legislation because 
soring is garnering more and more adverse and unnecessary 
publicity for the horse show industry at large.
    Witness the press about Jackie McConnell and Larry Wheeling 
and others. This affects the non-walking horse sector of the 
show industry. The public sees other breeds doing an animated 
gait and thinks it is a walking horse and being sored rather 
than performing its natural gait. That reflects badly on the 
entire show horse industry.
    We support this legislation because federal law to prohibit 
soring has been on the books for 43 years but it continues in a 
segment of the walking horse industry. Everyone maintains that 
they oppose soring but there are differences of opinion on how 
to stop it.
    Almost on the date the Act was passed 43 years ago, these 
differences have been discussed, debated, argued, litigated, 
lobbied, and been the subject of federal rulemaking. The 
discussion has become toxic within the horse industry. The AHC 
and major show organizations now believe it is time for the 
controversy to stop and that only a change to the existing 
federal law can stop it.
    Finally, and most importantly, we support this legislation 
because it is the right thing to do for the horses.
    The AHC believes that we need a federal change to the Horse 
Protection Act, a change to eliminate action devices and stacks 
in the Big Lick and performance sectors of the walking horse 
industry, a change to inaugurate a new inspection program that 
will rely on independent professionals including accredited 
veterinarians to inspect the horses involved rather than 
continuing the current failed DQP program, and a change to 
provide for uniform and strong penalties including 
disqualification for life if it comes to that. The Prevent All 
Soring Tactics Act is the answer. The PAST Act is a narrowly 
drafted bill that is focused on soring and limited to the 
problem it is trying to solve. It will change the federal law 
to end the bickering and debate, reform the regulatory system 
and finally eliminate soring. The PAST Act does not adversely 
affect or unnecessarily burden other segments of the show horse 
industry that are not soring horses and have no history of 
soring horses.
    The following major horse show organizations support the 
PAST Act: American Association of Equine Practitioners, 
American Morgan Horse Association, the American Paint Horse 
Association, American Quarter Horse Association, Appaloosa 
Horse Club, Arabian Horse Association, Pinto Horse Association 
of America, American Saddlebred Horse Association, U.S. 
Equestrian Federation, United Professional Horsemen's 
Association. There are others, but those are national 
organizations. That is a large part of the show horse industry.
    For those of you who are familiar with the horse industry, 
it is an industry famous for a lack of uniformity on anything, 
lack of unanimity on anything, but in this case, there is 
amazing consensus and support of the PAST Act. We ask you to 
pas this legislation. After 43 years of federal regulation and 
soring continuing, it is the right thing to do. We must stop 
soring, the culture of soring, and pass this legislation. Thank 
you, sir.
    [The prepared statement of Mr. Hickey follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Terry. Thank you, and all time for the witnesses has 
concluded, and so at this time it is our opportunity to follow 
up and ask questions to the panel. As chairman, I get to go 
first.
    So it seems to me that listening and reading your 
testimony, it boils down into two distinct camps. Maybe 
``camp'' is too strong of a word. Everyone seems to agree that 
the tactics process that we witnessed in the video clip and 
that we have read about is horrible and should not be part of 
the walking horse industry. Where there seems to be a spilt 
between the testimony here is the need for any additional layer 
of legislation or H.R. 1518 specifically.
    So I think for me, that is where I want to kind of dive 
down into is why there is opposition to this bill. Now, 
Commissioner Johnson, you mentioned in your testimony that 
there is a problem, although it is small, and that there are 
reasonable solutions. Could you be more specific in what you 
think would be the better solution? Turn on your microphone.
    Mr. Johnson. Really, this is an area that I am not an 
expert in that I look to those who are the experts, and Dr. 
Bennett has long been recognized as one of those experts that I 
consult with, and I would like to him to answer those kind of 
questions. But I don't feel like I have the expertise.
    Mr. Terry. I appreciate that.
    So Dr. Bennett, you established your credibility and 
expertise in an impressive way. So you also mentioned that this 
bill is not necessary and perhaps goes too far. Would you 
clarify, A, is there something that should be done? What part 
of this bill--is any part of H.R. 1518 do you think appropriate 
and would be effective in stopping these procedures?
    Dr. Bennett. Thank you for the opportunity, and great 
questions. I would think the greatest part about H.R. 1518 has 
got us in this room so we can discuss this problem. Now, with 
that said, Mrs. Benefield, who I consider a friend, brought up 
the fact, just one thing, I am not going to go through the 
list, but spurs under their saddles. They go through 
inspections now, the saddles have to be off. That is mandated. 
The other thing that I would see is like I said, we have 
science and technology. I have got three digital X-ray machines 
that can shoot X-rays and have the results in 6 seconds. I have 
got three thermography cameras. That measures the physiology of 
the horse. X-rays measure the anatomy. That is science. There 
is swabbing that you will hear about. There is machines out 
there----
    Mr. Terry. Do you X-ray? Is this process done before every 
show or is this just when an accusation has been brought up 
that you will go the extent of using this new technology?
    Dr. Bennett. The walking horse industry themselves does not 
have X-ray machines at their inspections. The USDA when they 
come in bring their X-ray machines and veterinarians and they 
have the option to X-ray at their discretion. And that kind of 
came up--if I may, this kind of came up on the X-rays over a 
1979 study from Michigan State University on laminitis.
    Mr. Terry. We play them this Saturday, so I hope you say 
that you want them to lose. Go forward, though.
    Dr. Bennett. Yes, Kentucky lost basketball and not doing 
good. But anyway, this is a 1979 study that had to do with 
horses that had laminitis and if they could come back and be in 
the show ring. Anybody that does equine podiatry or works on 
horses' feet, the science is well past that now. So that is one 
rule that we are boxed into with radiographs. The good thing 
is, is the bolts that are under there or any of those things, 
the X-rays pick those up. You can see them right there on the 
spot. And that is what I would like to get across is, let us 
get the science and catch those horses with science objectively 
before they go in the show ring.
    Mr. Terry. How about the issue that was brought up with 
conflict of interest with the inspectors? Is there a way to 
resolve that?
    Dr. Bennett. Yes, it can be resolved. The thing is, they 
hammer me with 40-some years of history, and I can't argue 
that. That is the reason I am here. I don't like soring. The 
problem we have got is with the show, HIO, that Mr. Whitfield 
was alluding to that it was started in 2009 as a result of the 
AAEP white paper made the inspectors sign a non-conflict of 
interest. There are steps in place, but that is one HIO. There 
are 13 HIOs. Who certifies those HIOs? The USDA. I get hammered 
all the time at these meetings I go to. We need one HIO. I 
agree. I agree 100 percent. But there are 13.
    Mr. Terry. Thank you.
    Now the ranking member, Ms. Schakowsky, has 5 minutes.
    Ms. Schakowsky. Thank you. Actually, we are, I think, 
seeing two different worlds, one that says no problem, this may 
have been a problem, isn't a problem anymore, and another that 
says that this is ongoing.
    Ms. Benefield, I wanted to ask you, how do you account for 
the testimony that we have heard that the walking horse 
industry is approaching 98 percent compliance rate, 96 percent 
compliance with regard to soring that they claim, the 
discrepancy in what you see happening?
    Ms. Benefield. Well, what goes on with a lot of those 
horses is, trainers or veterinarians will go in and actually 
numb the horses on the show grounds prior to inspection with 
topical applications of creams or sprays or they will actually 
inject them with numbing agents to get them through inspection 
in addition to the stewarding that I discussed. So the horse is 
now trained to pas the inspection and not elicit a pain 
response. That will interrupt your percentage rates 
significantly, and also, the rates that they are counting on 
are based on entries. For example, if you have 10 horses at a 
horse show and that horse goes in one class and he is inspected 
and turned down, that would be a 10 percent noncompliant rate, 
but if that horse goes in 10 classes each, that is 100 horses 
and those of the 100 entries, so now you are looking at a 1 
percent. So they dilute the percentages by calling them entries 
when horses go in multiple classes rather than calling them 
just individual horse individuals.
    Ms. Schakowsky. Well, how do you know this is happening 
still? Dr. Bennett says the technologies have caught up and 
that isn't happening anymore. How do you know it is happening?
    Ms. Benefield. Well, I have witnessed it. In fact, at the 
Celebration, when I worked at the Celebration in 2010, I 
observed a veterinarian prior to a class actually injecting the 
horse with numbing agents prior to inspection.
    Ms. Schakowsky. All right. Dr. Bennett, just real quickly 
because I have another question for----
    Dr. Bennett. It makes no sense to numb a horse. One reason 
is that we want the exaggerated gait. If you numb his legs, Dr. 
DeHaven is a licensed veterinarian, he can tell you, they are 
not going to pick their feet up. The second thing is, if we 
have the swabbing and the technology, we can check for those 
numbing agents right there on the spot. Thank you.
    Ms. Schakowsky. Mr. Irby, you have been associated with 
this industry for such a long time and yet you are here today 
supporting the legislation. What have you observed?
    Mr. Irby. Over the past year, I actually kind of did my own 
informal study because I did at one time stand up for the 
padded performance horse, so I went around from barn to barn 
and saw that the majority of all of the trainers were either 
still soring horses, would even tell you what they were doing, 
applying hand cleaners, WD-40 and kerosene and mustard oil and 
things like that to their feet, and went all over middle 
Tennessee, parts of Kentucky, Alabama and other States, and my 
conclusion was that the majority of everybody, if not 
everybody, is still soring horses today in the padded 
performance division and that I could not find one single 
padded performance horse that had not been sored at some point 
in their life.
    Ms. Schakowsky. Could you speak to the economic motivation 
for trainers to sore and for the Horse Industry Organizations 
to turn a blind eye to the practice?
    Mr. Irby. The main economic factor is that by soring a 
horse, a trainer can take a colt that might go buy that is 16 
or 18 months old and take him to a training barn and within 90 
days a colt that they purchased for $500 to $5,000 they could 
sell for as high as $100,000. So it is a way for them to make a 
quick buck but it is a detriment to the industry, and it is 
only about their personal gain.
    Ms. Schakowsky. Thank you. I wanted to ask Ms. Bippen a 
question. You had talked about at the end of your testimony 
that there was an economic benefit to the breeds that your 
represent to end this practice. How do you explain that, that 
it would actually be beneficial? Because we are hearing 
testimony how important it is not to have further inspections.
    Ms. Bippen. Yes. The stigma that has attached to Tennessee 
Walking Horses has caused quite a few people to not want to own 
those horses, and even myself when I explain I have Tennessee 
Walking Horses, I have to explain that they are not show horses 
and they ask, are they the ones where they take those pads and 
those chains and they put them in a show ring. So I believe 
that the Tennessee Walking Horse has a fabulous disposition and 
many more people should own one, but they just do not want to 
be associated with that soring, and they don't want to have to 
worry about participating in shoes where soring takes place. So 
without that stigma, I believe that industry could grow 
substantially.
    Ms. Schakowsky. And my time is about up. Thank you very 
much, all of you, for your testimony.
    Mr. Lance [presiding]. Thank you very much. The chair 
recognizes the vice chair of the full committee, Congresswoman 
Blackburn of Tennessee.
    Mrs. Blackburn. Thank you, Mr. Chairman.
    Mr. Hickey, thanks for being here. You are testifying on 
behalf of the American Horse Council, correct?
    Mr. Hickey. Correct.
    Mrs. Blackburn. OK. Now, you are testifying for ending the 
practice of soring, correct?
    Mr. Hickey. Correct.
    Mrs. Blackburn. OK. Now, the major contributing----
    Mr. Terry. I have to interrupt. Will you pull the 
microphone closer?
    Mrs. Blackburn. OK. The major contributing industry to the 
Horse Council is the Thoroughbred industry, right?
    Mr. Hickey. No.
    Mrs. Blackburn. Oh, it isn't?
    Mr. Hickey. No.
    Mrs. Blackburn. OK. I have information that it is, and of 
course, the Thoroughbred industry has had over 3,000 horses die 
in the last 4 years, died on the track. So you are saying there 
is a presumed problem with the Tennessee Walking Horse, and I 
would like to ask you why you think that is worse than the 
issue that exists with what the stats would say is the problem 
with the Thoroughbred industry?
    Mr. Hickey. Well, I am testifying today on the PAST Act. I 
believe that next week you will have a hearing on the other 
bill that Ms. Schakowsky and Mr. Whitfield have involving 
medication in racing. That would be, I think, a more 
appropriate question then.
    Mrs. Blackburn. Let me move on.
    Mr. Hickey. But let me just say----
    Mrs. Blackburn. No, let me move on with my questioning. Let 
me reclaim my time.
    OK. With the number of deaths in the Thoroughbred industry, 
I am curious as to how you can be a proponent for self-
regulation in the Thoroughbred industry but you are not a 
proponent for self-regulation in the walking horse industry.
    Mr. Hickey. Well, I am not sure that self-regulation is 
correct. I am a proponent for amending the Horse Protection 
Act, which has been a federal law in existence for 43 years, to 
amend it very narrowly, I might point out, to prohibit and 
finally stop soring, which was passed 43 years ago to try to 
do. It has not worked. So that was my testimony there.
    Mrs. Blackburn. OK. Then----
    Mr. Hickey. We are----
    Mrs. Blackburn. Let me reclaim my time and move on with 
questions then. So if you are for that, now, let me ask you 
this, would the American Horse Council support the use of 
action devices and pads in the other competitive areas where 
these may be used with other show breeds, and what makes the 
action device and pad used in the walking horse industry 
different, and then should all breeds be banned from the use of 
action devices and pads?
    Mr. Hickey. Well, all breeds--other people help me with 
this, because this gets into some specific breed questions. 
Each breed regulates its own showing and classes. All other 
breeds prohibit the use of action device and the large pads and 
stacks that we are talking about today in the show ring.
    Mrs. Blackburn. OK. Let me----
    Mr. Hickey. It is only the performance horses----
    Mrs. Blackburn [continuing]. Move on to Dr. Bennett then 
and have him pick this up.
    Mr. Hickey. Can I--one----
    Mrs. Blackburn. Sure.
    Mr. Hickey. Soring would not be--and again, anybody else. 
Soring would not be appropriate or helpful in the activities 
and the classes and the shows of other breeds. In fact, it 
would be counterproductive. So this Act does not--although it 
applies to them, it does not apply to them in the same fashion. 
They don't have--they are not regulated because they don't sore 
their horses.
    Mrs. Blackburn. Reclaiming, and Dr. Bennett, you are 
recognized. Do the pad and action devices cause any harm to the 
horse?
    Dr. Bennett. I have done exhaustive research myself as best 
I could, and I cannot find going back to the early 1970s any 
published scientific literature that says that package or pads 
on the Tennessee Walking Horses or the action device cause 
lameness and/or soring.
    Mrs. Blackburn. OK. And----
    Dr. Bennett. Is there an article out there? Possibly could 
be. I could not find it.
    Mrs. Blackburn. OK. In your 33 years of working as a 
veterinarian and working in the field of walking horse, has the 
condition of the horses competing in the ring improved with 
regard to compliance with the Horse Protection Act?
    Dr. Bennett. Yes, I can say that they have improved 
according to the Horse Protection Act, and I would like to 
comment about the slide that they show of the Tennessee Walking 
Horses going around the Celebration ring, and it makes you 
think that those horses are sore. Those horses that got in the 
ring have been through the most stringent inspection process of 
any horse. The horse that they want to show should be the one 
that got turned out. Just a sideline.
    Mrs. Blackburn. Thank you. Yield back.
    Mr. Terry. At this point we recognize the gentleman from 
Kentucky, Mr. Yarmuth.
    Mr. Yarmuth. Thank you, Mr. Chairman. Thank all the 
witnesses for their testimony. I also want to thank my 
colleague, Mr. Whitfield, and also Congresswoman Schakowsky for 
their sponsorship of this bill, which I am proud to cosponsor.
    I would like to allow Mr. Hickey--it seemed like you wanted 
to make a distinction between this situation and Thoroughbred 
racing that you weren't able to make. Would you like to 
elaborate on your answer?
    Mr. Hickey. Well, I mean, we can go into the late afternoon 
if we are going to get into other legislation too, but the 
situation briefly, and I should not be testifying on this, but 
briefly, the medication legislation and horseracing, it comes 
down to whether you should allow race-day medication or not. 
There is a huge controversy within the racing industry as to 
whether race-day medication is beneficial or is not beneficial, 
and that rages on. In the last 2 years, the uniform rules on 
race-day medication has gone into effect in, I think, 11 
different States and will go into effect and there will be 
uniform rules on January 1. Now, this is something for a future 
hearing, but I just wanted to point that out. There is no 
debate within the horse show industry as to whether soring, 
which is what we are talking about, is appropriate or not.
    Mr. Yarmuth. I also want to carry on the conversation that 
the chairman started about the nature of the objections to the 
bill, because there are several misconceptions, it seems like, 
about what the bill--at least differences of opinion about what 
the bill does or doesn't do, and you made the statement and 
others have made it that this really wouldn't solve the problem 
because it doesn't specifically relate to soring, but in 
Section 2(d)(1)(B), it clearly bans soring, I think, when it 
states that conduct ``causing a horse to become sore or 
directing another person to cause a horse to become sore'' is 
prohibited. Do you think that----
    Dr. Bennett. Yes, I think what I was----
    Mr. Yarmuth [continuing]. Is a sufficient definition? I am 
sorry. Go ahead.
    Dr. Bennett. No, I am sorry. What I was alluding to is, 
there again, why are we still having this after 40 years? The 
problem that I see is that the inspection process is so 
subjective, and what happens is, a horse gets turned down, say 
for scar rule violation. If he gets a penalty from one HIO, 
that penalty is not recognized by another HIO so he can go 
somewhere else and show. The penalties and the subjectivity of 
the nature of the inspection is the problem I have. Let us get 
down to science, and we could get this solved. If we use 
industry numbers, we are at 98 percent. If we use USDA numbers, 
we are at 96 percent. We are making progress, and I have talked 
to the AAEP--I am an AAEP member--and they always say when 
industry decides that they can show that they want to help 
themselves, then we will be glad to jump in. We are getting 
there. We are not at the stage yet that I want to go and say 
hey, help us, here's what we got. But we do have proof since 
2009 when we got the most stringent HIO in place, but what 
happened, when we penalized those people, they went somewhere 
else. It is like losing a driver's license in this county but 
you can go to the next county and drive. It is an inconvenience 
but you can still drive. If you took their driver's license 
away for the entire North America, then you have penalized 
them. Does that answer?
    Mr. Yarmuth. Doesn't the original Act deal with 
transporting horses that have been sored, though?
    Dr. Bennett. Yes, and this is a very emotional issue when 
you start looking at the type of Jackie McConnell and all that, 
but there again, the Horse Protection Act doesn't cover that. 
It covers transport, showing, exhibiting and offering public 
sale.
    Mr. Yarmuth. There obviously also is a dispute over the 
number of the incidents, the frequency, I guess, of soring, and 
the number is 97, 98 percent. Obviously Mr. Irby and Ms. Bippen 
have very different numbers. Do you want to elaborate? I know 
you have got lots of documentation that you----
    Ms. Bippen. Yes, I am happy to elaborate on that. We have 
been analyzing the data for quite a few years, and we always 
analyze it according to the number of horses at a show, as Ms. 
Benefield spoke about, so if you have 10 horses at a show and 
three of them are sored, we consider that a 30 percent 
noncompliance rate. However, recently the numbers that are 
coming to us are entries, so if those 10 horses were in 10 
classes, that is 100 entries and they would say now that it is 
only a 3 percent noncompliance rate, and so those are the 
numbers that are coming back to us now from the noncompliant 
HIOs. We are unable to find out the actual number of horses 
entered. Now what they are giving us are the entry rates, and 
because the flat-shod horses are not sored generally and they 
are now becoming more popular, what they are going to do is 
boost up the sound horse rate for those groups.
    Mr. Yarmuth. I see. Mr. Irby, do you want to elaborate on 
that, because you obviously, at least anecdotally, have a very 
different opinion.
    Mr. Irby. Yes, sir. I actually would like to comment. I 
can't cite the numbers but if you see the stacks on the table 
here and the chains, this segment of our industry is where the 
problem is, and I think what Ms. Bippen is saying is, we don't 
have this problem, we don't see it hardly at all within the 
normal regularly shod Tennessee Walking Horse, which that 
entire division, all those divisions will still be left for the 
majority with this bill, and this bill eliminates this division 
where the majority of the problem is, which is less than 10 
percent of our entire breed. Thank you.
    Mr. Yarmuth. I appreciate that. I yield back, Mr. Chairman. 
Thank you.
    Mr. Terry. Thank you, Mr. Yarmuth, and at this time 
recognize the vice chairman of the subcommittee, Mr. Lance, for 
5 minutes.
    Mr. Lance. Thank you very much, Mr. Chairman, and good 
morning to you all, and let me say that I recognize the 
expertise of everybody on the panel. This is not an area that I 
know well, but certainly I will continue to review the 
testimony.
    I represent a district in New Jersey that includes the New 
Jersey area related to the horse industry. There are 
constituents of mine who this time of year ride to the hounds 
in places like Bernardsville and Far Hills and Bedminster and 
perhaps some on the panel are familiar with that area. Although 
I am from New Jersey and not from the South, I certainly 
respect and honor the great State of Tennessee. I was honored 
to go to law school in Nashville, and I have been in 
Shelbyville as a guest of Mrs. Prentice Cooper, the widow of 
one of your great Governors, whose son, Jim, is a colleague of 
ours here in Congress. Jim's brother, William, and my wife and 
I were in law school together, and I have witnessed the 
performance in Shelbyville, I believe at the end of the summer, 
regarding the Tennessee Walking Horse.
    To Commissioner Johnson, is it possible to continue showing 
the Tennessee Walking Horse without soring?
    Mr. Johnson. I believe the industry has already proven that 
yes, it is, but certainly there are individuals, bad apples, 
bad actors in every kind of activity----
    Mr. Lance. Yes, of course, there are bad apples. Perhaps 
Congress is aware of that in its own responsibilities.
    To Ms. Benefield, is it possible to continue to show the 
Tennessee Walking Horse, eliminating the abuses you suggest 
that exist?
    Ms. Benefield. Yes, I do believe that you can continue 
showing the walking horse without the abuse. You will notice 
that according to the records that Ms. Bippen has been 
expressing to you, there are a lot of shows around the United 
States that do not use the pad and chain, and for example, in 
California, a show at the Los Angeles Equestrian Center may 
have as many as 150 individual horses at a show, and they are 
all flat shod, and yet at another venue in Los Angeles they 
will have a padded show, and a big class for them would be two 
horses or one horse. So the flat-shod horse is continuing to 
show around the United States, and this problem seems to be 
more centralized in the South now. It used to be widespread 
around the United States but it has become more centralized.
    Mr. Lance. Thank you. Let me say not as a question but as a 
comment, I hope and expect that this is an area where people of 
good will can come together, and the purpose of this hearing is 
to elicit information from the distinguished members of the 
panel who are expert in this area, and I am hopeful, based upon 
the expertise of everyone on the panel, that a solution can 
occur, and let me repeat, I recognize the expertise of all on 
the panel and I do not believe that it is appropriate for one 
part of the Nation to point a finger at another part of the 
Nation, and I certainly want to work with everybody on the 
panel including those from the great State of Tennessee, a 
State that is very fond to me, and I look forward to continuing 
this discussion to protect what we need to protect regarding 
horses, and certainly that is true in New Jersey and 
particularly the district I serve. I yield back the balance of 
my time, Mr. Chairman.
    Mr. Terry. Thank you, Mr. Lance. At this time I recognize 
the gentleman from Missouri, Mr. Long.
    Mr. Long. Thank you, Mr. Chairman. Mr. Chairman, I have 
given the committee a series of statements from individuals who 
are deeply concerned about this issue but weren't able to 
testify before the committee today. I ask unanimous consent 
that these statements be submitted for the record.
    Mr. Terry. Without objection, so ordered. \*\
---------------------------------------------------------------------------
    \*\ The information has been retained in committee files and is 
also available at http://docs.house.gov/meetings/if/if17/20131113/
101469/hhrg-113-if17-20131113-sd004.pdf
---------------------------------------------------------------------------
    Mr. Long. Technology has caught up with the training. I 
think, Mr. Irby, you talked about--or was that Dr. Bennett? OK. 
Can you elaborate on that a little bit?
    Dr. Bennett. Yes, sir. Thank you for the question. There 
again, why are we still having this discussion after 43 years? 
Why can't we put it to rest? And in my opinion, the 
subjectivity of the inspection system along with 13 HIOs where 
there is no penalties that are transferred between them, it 
makes it a glass ceiling that we can't get above, in my mind. 
The technology is there now. Before that horse goes in the show 
ring, he could be tested and make sure that there is no caustic 
chemicals that we heard about, no numbing agents that we heard 
about on there. We could X-ray them and make sure there is 
nothing under that pad. We can have failures there that they 
can pull the shoes off and put them back on. The technology is 
there to stop this without taking the industry away. And I 
would argue with the 10 percent. I think if you read the H.R. 
1518, it is weighed shoes, pads, chains. They do make mention 
that you can still have a therapeutic pad or for protection but 
that is kind of vague to me.
    Mr. Long. I have heard soring described in several 
different ways here today, but is it possible through this new 
technology that you are talking about to tell if they had been 
sored in the past and healed? Can they heal from this, or can 
you always see that there is signs where they have been sored 
in the past?
    Dr. Bennett. Yes, I think you are alluding to, sir, the 
change in tissue that we saw on the screen earlier, and 
remember, the skin is an organ just like your heart, just like 
your liver, just like----
    Mr. Long. But the skin doesn't show up on an X-ray, does 
it?
    Dr. Bennett. No, sir, but what I am getting to----
    Mr. Long. When you were talking about the X-rays earlier, I 
understand the deal about the bolts or whatever, but other than 
they, do they X-ray, or what are you looking for there as far 
as the soring?
    Dr. Bennett. You could look for pressure shoeing, like Mrs. 
Benefield said, where they can take and rasp the sole down. We 
have parameters that we know that certain millimeters of sole 
depth is protective to the horse's foot. We could measure that 
with digital X-rays.
    Mr. Long. Also during your testimony, you offered to let us 
come ride with you which----
    Dr. Bennett. Yes, sir.
    Mr. Long [continuing]. Don't offer, I will probably show 
up, so don't invite me anywhere because I will always be there. 
But I didn't get your point on what are we going to see in 
relation to this topic that would----
    Dr. Bennett. Yes, basically what I was getting to there is, 
come and see the horses with their clothes off and with their 
clothes on. Go to the barns and see how they are prepped and 
see how they are ridden and see them getting ready to go to the 
shows and go and see how they are inspected and the process 
that they go through to get into the show ring.
    Mr. Long. OK. Thank you.
    And Mr. Irby, you said that--I don't remember the fellow's 
name now that was on the Nightline tape. How old that Nightline 
tape?
    Mr. Irby. I believe it is from May of 2012.
    Mr. Long. OK. And what is the fellow's name that was----
    Mr. Irby. Jackie McConnell.
    Mr. Long. OK. And you say that you are friends with him and 
have been ever since you were a little kid?
    Mr. Irby. I haven't spoken to him in a long, long time but 
I have known him because my parents have been friends with 
him----
    Mr. Long. Probably not since May of 2012. Your parents 
what?
    Mr. Irby. They have been friends with him since I was 5 
years old.
    Mr. Long. OK. And someone like that, do they not have a 
reputation for -- I mean, would they not have known before this 
Nightline tape came out? I mean, I would think that people in 
any field if they are doing something that is untoward, 
illegal--I used to fish a lot of bass tournaments and there 
were people that were suspected of cheating and later proven to 
be cheating. Most people knew that they were cheating. Was this 
not known before this from this individual?
    Mr. Irby. I believe it probably was known. He was actually 
on a federal suspension at the time and still participating in 
horse shows, and he is not the exception to the rule. He is the 
rule. Within the padded performance division, this is typically 
the way things are, and you pretty much have to cheat or you 
can't compete.
    Mr. Long. How can it be the rule if 98 percent are 
compliant?
    Mr. Irby. That is mainly because of the masking agents I 
believe Ms. Benefield spoke about and things they can do to 
hide. I would probably have to defer to Dr. DeHaven or Ms. 
Benefield on that.
    Mr. Long. Let me ask Ms. Benefield, on the numbing agents 
that you were talking about earlier, I kind of agree with Dr. 
Bennett. I mean, if you are trying to sore to make them pick up 
and do this, what do you call the gait again?
    Ms. Benefield. Big Lick.
    Mr. Long. The Big Lick, if they are doing this Big Lick, 
how does numbing agents--I mean, why would that make them pick 
up their feet if their feet are numb?
    Ms. Benefield. The numbing agents don't in fact make them 
pick up their feet. What the trainers do is, back at the barn 
they will numb the horses legs and they will establish a 
window----
    Mr. Long. When you say back at the barn, are you talking 
about on the day of the event or are you talking about back at 
the barn at home?
    Ms. Benefield. Back at the barn in training, they will 
establish a window of when they put the numbing agent on and 
how long it takes for that numbing agent to wear off so that 
way they have a timing on when to put it on and how long they 
have before it wears off. So they time it in front of the time 
they are going to go into the class.
    Mr. Long. A barn at the show or a barn at home?
    Ms. Benefield. No, the barn at home. They are establishing 
their window.
    Mr. Long. They numb it there?
    Ms. Benefield. Then they use that same window----
    Mr. Long. I am sorry?
    Ms. Benefield. Then they use that same window for their 
application at the horse show so they know exactly the timing 
and when to put that agent on and when it will wear off so it 
will work--so it is no longer numbing the leg when they are in 
the show ring.
    Mr. Long. Well, that is pretty good science if they can do 
that. I yield back.
    Ms. Benefield. Well, they do.
    Mr. Terry. Thank you. Mr. Kinzinger, do you have any 
questions?
    Mr. Kinzinger. No, Mr. Chairman.
    Mr. Terry. Then the last person is Mr. Whitfield, and he is 
last because is actually not a member of this subcommittee, 
although he is the chair of Energy and Power Subcommittee, and 
so he is a guest of this subcommittee, and under our rules, the 
guests go last.
    Mr. Whitfield. Well, thank you very much, Chairman Terry, 
and than all the witnesses today as well.
    Dr. DeHaven, I want to ask you a couple of questions. Dr. 
Bennett has referred repeatedly about the subjectivity of 
inspections to determine soring. Do you agree with him on that 
issue? Is it subjective or is it objective?
    Dr. DeHaven. There is some level of subjectivity because 
most of the inspection is based on a digital palpation where 
you are palpating those areas of the foot that most likely are 
to be sore. However, having said that, and with a lot of 
experience in the field, there has always been good correlation 
between what the inspector is finding on digital palpation and 
what the technology, thermography and radiology, will tell you 
as well. So while Dr. Bennett referred to a lot of this as new 
technology, in fact, we have been using thermography and 
radiology X-rays for a number of years. But from a practical 
standpoint, when you have hundreds of horses that are going 
through inspection, you can't use that on every animal. So the 
mainstay of the inspection is digital palpation by that 
inspector, and indeed, good correlation between what the 
inspector is finding and what the technology would corroborate.
    Mr. Whitfield. Well, do you believe that the current HIO 
DQP system is working?
    Dr. DeHaven. We have heard a lot about the level of 
compliance. I have heard numbers like 96.6 percent and 98.5 
percent compliance rate. Two points on that. One would argue 
after 43 years of a goal of zero soring, we really haven't 
achieved that we meant to years ago. The other is that those 
compliance rates are based on a self-policing program where you 
have industry inspectors inspecting the industry. What the 
statistics also show is that those inspectors that work for the 
industry are about 10 times more likely to find a violation 
when they have a USDA veterinarian looking over their shoulder. 
So those compliance rates assume self-policing. When there is 
oversight, in fact, the compliance rate goes way down.
    Mr. Whitfield. Well, it is my understanding that APHIS 
sends in inspectors only about 6 percent of the shows, and the 
violation rates are much higher there than they are with the 
self-policing of the DQPs. Is that correct?
    Dr. DeHaven. Indeed. If we look at the statistics from 2012 
with 71,000 inspections done by the industry, there was a 99 
percent compliance rate. However, when they are overseen by a 
USDA inspector, that compliance rate goes down to about 94 
percent. Stated another way, 78 percent of the violations that 
the industry inspectors found during the 2012 show year were 
found when USDA was present, even though they are at less than 
10 percent of the shows.
    Mr. Whitfield. Right, right. Well, I don't see why people 
would be opposed to this legislation. This legislation simply 
says we will have independent inspectors trained by USDA, hired 
by the shows, and it is not even mandatory that the shows hire 
those inspectors. If they don't hire those inspectors, then 
they are going to be subject to more penalties. But Mr. Irby, 
do you object to independent inspectors trained by the 
Department of Agriculture and veterinarians on top of that?
    Mr. Irby. No, absolutely not. I am 100 percent in favor of 
the USDA licensing the inspectors as the bill provides and 
doing away with the self-regulation system because in 40 years 
we have proven that we cannot do it, and I believe that is the 
only way that a truly sound horse will be able to be----
    Mr. Whitfield. And Mr. DeHaven, do you support the 
legislation in that sense?
    Dr. DeHaven. Indeed I do. I think it addresses the self-
policing problem. It also narrowly focuses on the areas where 
the biggest problems are: the use of the pads and chains, which 
contribute to soring.
    Mr. Whitfield. Yes, and you also said there is no reason to 
have one of these on a horse unless he has been sored. Is that 
correct?
    Dr. DeHaven. It provides an additional incentive to sore a 
horse. If you create an injury on that horse's pastern by the 
practice of soring and now you are going to have a change 
strike that, you are going to get a much greater reaction than 
if that animal had not been sored. And so by removing the 
change, you remove much of the incentive to even sore that 
horse to begin with.
    Mr. Whitfield. Now, Tennessee Walking Horses are showed in 
a lot of places around the country. We have 12 or 13 IHOs, or 
HIOs, and I am sad to say that the problem does seem to be in 
the Shelbyville, Tennessee, area, parts of Kentucky where PRIDE 
has been, and parts of Missouri. Those seem to be the three 
problem areas. Would you agree with that, Mr. Irby?
    Mr. Irby. Yes, sir, I would. It is a majority in the 
Southeast but those three are the top three areas.
    Mr. Whitfield. And what about you, Mr. DeHaven? Would you 
agree with that?
    Dr. DeHaven. I would agree, and that is where the 
concentration of the Big Lick horses is.
    Mr. Whitfield. And Mr. Bennett, whom I have met with and 
who I enjoy being with and he is a personable fellow and I am 
sure he does a great job, but he has been very much involved 
with the show HIO, and we have the letter from the Department 
of Agriculture saying that they are notifying them that they 
are going to decertify their program, and we have another 
letter, unfortunately, that applies to the Kentucky HIO PRIDE, 
and another letter to the Missouri. So this program is 
working--this industry is working well without using soring or 
action devices in many parts of the country, but in this one 
geographical area because of self-policing, in my humble 
opinion, it is not working, and that is why we introduced the 
legislation.
    Dr. Bennett. And I would agree with that.
    Mr. Terry. Your time is expired and now recognize the 
gentleman from Kentucky, Mr. Guthrie.
    Mr. Guthrie. Thank you very much.
    Mr. Whitfield. Mr. Guthrie, would you just 1 minute?
    Mr. Guthrie. Yes, I will yield to my friend.
    Mr. Whitfield. I just wanted to ask for unanimous consent 
to enter into the record the documents that I gave you all 
yesterday that we refer to certain Web sites, and then also a 
letter from the ASPCA supporting the legislation.
    Mr. Terry. All those documents were submitted to us and to 
the other side, and there is no objection, so they are entered.
    Mr. Whitfield. And also from Mr. Yoho, who is a Member of 
Congress from Florida, his letter about the legislation.
    Mr. Terry. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Guthrie. Thank you, Mr. Chairman.
    Mr. Johnson from Tennessee--and I am sorry, I had to step 
into another committee hearing, so you may have answered this. 
I know the one question I was going to ask, you did get to, but 
you talked about the effect of this bill on the industry and 
Tennessee. I am from Kentucky, just north of--I am in Bowling 
Green, so I am just a few miles from the Tennessee border, and 
I understand Shelbyville and I know that area. You talked about 
it is going to affect the industry in that area, and so my 
question is, is it bad actors or is it widespread? That is one 
thing that is hard to get out of all the information I tried to 
receive. One group is saying it is just a handful of bad 
actors. There is a handful saying it is widespread. Then you 
see investigations where just a handful of horses are found and 
then you see when the USDA comes, they said 52 out of 52 were 
found. So it is difficult to come up with exactly--what is your 
opinion? Is it bad actors or is it widespread?
    Mr. Johnson. What I have testified to here today is the 
impact it would have on Tennessee's economy, Tennessee rural 
communities, Tennessee charities that depend on these horse 
shows for their charitable contributions and fundraising for 
the year. For the young people that are involved in these 
organizations of showing horses and so forth, the caring of 
animals in a proper way, the training of the animal in a proper 
way, it is a great tool for raising kids with. It is a great 
activity for families to build their family around. Now, I am 
not an expert in other areas that deal with whether it is the 
bad apple or whether it is widespread. That is for folks with 
more tools than I have available to me. But I can tell you that 
it will be devastating to eliminate the Big Lick horse, the 
performance horse from being shown, and I think with all due 
respect, Chairman, Representative Whitfield, that your bill 
does much more than what you have described to this committee, 
and that is my concern. I think it will change the industry 
around this country tremendously, and I don't have the details 
to go into that but----
    Mr. Guthrie. But if it doesn't just prevent soring, then my 
question is, is preventing soring what is going to hurt the 
Tennessee economy or having this method of preventing soring?
    Mr. Johnson. Having this method.
    Mr. Guthrie. And why is it more--I am just trying to get 
information, unless you want--I can yield to my friend. Do you 
want to follow up? Because he brought you into it.
    Mr. Whitfield. Well, I mean, we are talking about 
independent inspectors here and we are talking about removing 
action devices and preventing soring. Other than that, how is 
that going to hurt your economy so much?
    Mr. Johnson. Well, the folks that I depend on tell me--and 
I don't have all the details there and I would be glad to 
furnish this after the fact if I could.
    Mr. Whitfield. Sure.
    Mr. Johnson. But it goes much--your bill goes much further 
than that and would eliminate really the performance horse.
    Mr. Whitfield. Well, one organization down there asked me 
for some specific information about this bill. We sent them a 
letter explaining in detail that it didn't do what they said, 
and they refused to put it on their Web site even. So I think 
there is some misinformation, but basically the bill provides 
independent inspectors, veterinarians trained by USDA. It gives 
the show the option of using those inspectors. If they don't 
use those inspectors and APHIS comes in and finds a violation, 
then there is pretty severe penalties, but it does eliminate 
soring and it eliminates the action devices like this, which 
Mr. DeHaven and others have said are not necessary unless you 
are soring.
    Mr. Johnson. Could I interject?
    Mr. Terry. Sure.
    Mr. Johnson. I agree, I think we need one HIO, OK? The 
thing that concerns me is, is you said that the show managers 
have an option if they don't want to use the veterinarian 
inspectors. If everybody in here is for the welfare of the 
horse, what worries me is we start having shows that nobody 
knows about that no inspectors go to, and those bad actors that 
we got, if we don't get rid of them, they are going to show up 
there, and if we are after the welfare of the horse, I think we 
are creating an issue there that we haven't perceived yet.
    The second thing I would like to see is--I am sorry.
    Mr. Guthrie. Well, I just wanted to--Mr. Johnson said a 
balanced approach, and I was leaving just as I think somebody 
asked you that, and you were going to give the balanced 
approach. So how do you stop it then? If this bill is not a way 
to stop it, then what does stop it?
    Mr. Johnson. Let me answer that, but let me finish my train 
of thought with Dr. DeHaven and let him interject his opinion, 
but my opinion is, and I am all for one HIO. I am all for 
licensed veterinarians looking at them. I am all for objective 
testing, and I am for getting rid of soring. But I worry that 
we will find enough accredited veterinarians that want to go to 
horse shows on Friday night that start at 6:00 and don't get 
over with until 2:30 in the morning and then go back Saturday 
night and go through it again. Dr. DeHaven can answer that 
better than I can.
    Mr. Whitfield. Do you want to respond, Dr. DeHaven? It is a 
preference, anyway.
    Dr. DeHaven. I think we will only know the answer to that 
question if and when we are faced with that situation. Clearly, 
the AAEP, who represents several thousand equine practitioners, 
feels that that is feasible and the best solution. I think the 
worst-case scenario that even if we didn't have veterinarians 
doing the inspection as is the case now, at least they would be 
independent inspectors----
    Mr. Whitfield. And trained.
    Dr. DeHaven [continuing]. Who are trained and assigned by 
the Department of Agriculture and not an HIO.
    Mr. Whitfield. Well, that is why--I mean, I do think it is 
significant that every veterinary----
    Mr. Terry. The gentleman's time has----
    Mr. Guthrie. I will yield back my time.
    Mr. Terry. Thank you, Mr. Whitfield and Mr. Guthrie, and no 
one else here to ask questions, so this will conclude our 
hearing.
    Now, under our rules, any of the members can submit 
questions to you, and it sounds like there is already--
Commissioner Johnson, you mentioned that you wanted to supply, 
please feel free to do that. Once you get those questions from 
us, if there are any questions to you, we request that within 
about 14 days that you comply and get those back to us. I am 
not sure anyone is going to do that but the rules allow that, 
and I want to let you know that you may get those written 
questions from the committee.
    With that, I want to thank each and every one of you for 
coming here today and offering your expertise before us. It is 
extremely helpful to us to have your insights when we are 
dealing with pieces of legislation. So thank you for being 
here, and we are adjourned.
    [Whereupon, at 11:50 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

               Prepared statement of Hon. Henry A. Waxman

    Today the Subcommittee will consider H.R. 1518, the PAST 
Act. I am a proud cosponsor of this legislation, and I strongly 
support its goal of completely eliminating the cruel and 
inhumane practice of ``soring'' from horse shows.
    As my colleagues have described, soring refers to a variety 
of techniques that deliberately cause injury to a horse in 
order to force the horse to place more pressure on its hind 
legs and pick up its front limbs quickly, creating the kind of 
exaggerated, unnatural gait that is unfortunately prized by 
show judges. It is most commonly inflicted upon the Tennessee 
Walking Horse, a gentle and elegant breed that suffers great 
pain from these techniques.
    In 1970, Congress passed the Horse Protection Act, or HPA, 
to prohibit the showing, sale, auction, exhibition, or 
transport of sored horses, and to direct the U.S. Department of 
Agriculture (USDA) to administer the law and conduct 
inspections. Six years later, after too few USDA inspections, a 
bill amending the legislation to permit non-USDA inspections of 
horses was enacted.
    In the time since the 1970s, the inadequacy of HPA has 
become strikingly clear. H.R. 1518, introduced by my colleague 
Mr. Whitfield, with Ms. Schakowsky and others as original 
cosponsors, would address several of the statute's flaws. 
First, H.R. 1518 would end the current self-inspecting and 
self-policing system, which has kept too many soring offenses 
in the shadows and even allowed repeat offenders to remain on 
the circuit for years. It would do this by directing the 
Secretary of Agriculture to pick the inspectors, thereby 
avoiding the conflicts of interest that arise when those with 
vested interests select the inspectors. Second, the bill would 
add to the definition of soring the use of so-called ``action 
devices'' on horses' limbs, such as chains and certain weighted 
shoes. Third, the bill would increase violation penalties and 
mandate permanent disqualification from any horse show, 
exhibition, sale or auction after three cited violations.
    As we will hear from the witnesses today, the majority of 
horse trainers, show organizers, and veterinarians recognize 
that reforms are needed to ensure that walking horse shows are 
carried out in a fair and humane manner. The problem in the 
walking horse industry is too deepand the self-policing system 
is too wrought with conflicts of interest to be fixed by self-
regulation; action by Congress is essential.
    I want to thank Mr. Whitfield for introducing this bill, 
because it is the right thing to do, for both the well-being of 
show horses and the restoration of a fair and sound walking 
horse industry. I encourage all my colleagues who have not 
already done so to support the bill.Thank you.
                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
